September 29, 2000

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

HAROLD L. SWINTON
DISTRICT MANAGER, NORTH FLORIDA DISTRICT

SUBJECT:	 Audit Report - Review of the Violence Prevention and Response
          Programs in the North Florida District (Report Number LB-AR-00-007)

This report presents the results of our review of the violence prevention and response
programs in the North Florida District (Project Number 99EA007ER006). We engaged
a contractor, Williams, Adley & Company, LLP, to assist us in conducting this audit.
This audit report is one of a series of reports on violence prevention and response
efforts within the Postal Service.

On the basis of our review, we concluded that required controls were not fully
implemented to reduce the potential for violence in the North Florida District and the
district’s ability to respond to crisis situations could be improved. Although the North
Florida District generally complied with the Threat Assessment Team Guide when
reacting to incidents of violence, and also complied with some of the policies and
procedures in the Crisis Management Plan for Incidents of Violence in the Workplace, it
did not comply with other violence prevention requirements. The Vice President for the
Southeast Area did not agree with our overall conclusions, however we believe the area
and district planned or implemented actions are responsive to the recommendations
and address the issues identified in this report. Therefore, we will not pursue resolution
on this disagreement at this time. Management’s comments and our evaluation of
these comments are included in this report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Joyce Hansen, director, Labor Management-
Rosslyn, or me at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment
cc: Patrick R. Donahoe
    Yvonne D. Maguire
    Anthony J. Vegliante
    John R. Gunnels
Review of the Violence Prevention and Response                               LB-AR-00-007
 Programs in the North Florida District


                                  TABLE OF CONTENTS

Executive Summary                                                                  i

Part I

Introduction                                                                      1

   Background                                                                     1
   Objective, Scope, and Methodology                                              1

Part II

Audit Results                                                                     2

   Potential for Violence in the District                                         2

   Implementation of Violence Prevention and Response Programs                     2
   Recommendations                                                                13
   Management’s Comments                                                          14
   Evaluation of Management’s Comments                                            15

Appendix A. Objective, Scope, Methodology                                         17

Appendix B. Statistical Sampling and Projections for Physical Security            19
            Reviews and the Existence of Crisis Management Plans For
            Facilities In The North Florida District Fiscal Years 1997 and
            1998

Appendix C. Sample of Crisis Management Plans On Site and Physical                21
            Security Reviews Conducted at North Florida District
            Facilities Fiscal Years 1997 and 1998

Appendix D. Statistical Sampling and Projections for Employees Trained            23
            In Workplace Violence Awareness In the North Florida
            District June 1, 1997, Through June 30,1999

Appendix E. Management’s Comments                                                 25
Review of the Violence Prevention and Response                                      LB-AR-00-007
 Programs in the North Florida District


                                  EXECUTIVE SUMMARY
 Introduction 	                This report presents the results of our review of violence
                               prevention and response efforts within the North Florida
                               District, located in the Southeast Area. The North Florida
                               District was one of six districts randomly selected from the
                               nine districts within the Southeast Area.

                               The Office of Inspector General (OIG) engaged a
                               contractor, Williams, Adley, & Company, LLP, to conduct
                               fieldwork and data analysis, prepare working papers, and
                               draft reports. The OIG provided technical support, statistical
                               projections, and quality assurance reviews. The OIG and
                               the contractor prepared the final report.

                               Our objective was to determine whether the North Florida
                               District implemented Postal Service policies regarding
                               violence prevention and response programs.

 Results in Brief	             On the basis of the review, we concluded that required
                               controls were not fully implemented to reduce the potential
                               for violence in the North Florida District facilities, and the
                               district’s ability to respond to crisis situations could be
                               improved.

                               The district generally complied with the Threat Assessment
                               Team Guide when reacting to incidents of violence. The
                               district:

                               •	 Established a crisis management team in 1993—four
                                  years prior to the issuance of violence prevention
                                  criteria.

                               •	 Consistently communicated and enforced the zero
                                  tolerance policy.

                               •	 Developed an action plan for handling violence in the
                                  workplace.

                               The North Florida District also generally complied with some
                               of the policies and procedures outlined in the Crisis
                               Management Plan for Incidents of Violence in the
                               Workplace.




                                                 i
Review of the Violence Prevention and Response                                     LB-AR-00-007
 Programs in the North Florida District



                               However, the district did not fully implement proactive
                               strategies designed to prevent violence from occurring, as
                               required by the Threat Assessment Team Guide. The
                               district did not follow many of the established policies and
                               procedures because officials believed the guide was not
                               mandatory. As a result, required controls were not fully
                               implemented to reduce the potential for violence in the
                               workplace. Our audit disclosed the North Florida District did
                               not:

                               •	 Conduct annual physical security reviews.

                               •	 Monitor and evaluate climate indicators.

                               •	 Engage in case management.

                               •	 Provide the required two-day orientation training to all
                                  threat assessment team members.

                               •	 Measure team performance.

                               •	 Mandate violence awareness training.

                               In addition, the district did not ensure receipt of local
                               customized crisis management plans at all facilities in
                               accordance with the Crisis Management Plan for Incidents
                               of Violence in the Workplace. We used a statistical sample
                               to project that as many as 114 (39 percent) of the
                               292 district facilities did not have a copy of their local
                               customized plan on site. (See Appendices B and C.)

 Summary of                    We recommended the vice president, Southeast Area
 Recommendations               Operations, direct the North Florida District manager to
                               implement seven recommendations designed to ensure
                               controls are implemented to improve the effectiveness of
                               the district’s violence prevention and response programs.

 Summary of                    The vice president Southeast Area Operations observed
 Management’s                  that the OIG report focused on the condition of the violence
 Comments                      awareness programs in fiscal year 1997 and 1998. He
                               stated that because the OIG based its August 2000
                               conclusions on data obtained before June 1999 (the
                               majority of which is FY 1997 and FY 1998), the conclusions



                                                 ii
Review of the Violence Prevention and Response                                     LB-AR-00-007
 Programs in the North Florida District


                               are somewhat misleading. The vice president emphasized
                               that the Southeast Area remains committed to the
                               continuous improvement of the violence prevention and
                               response programs and that instructions would be issued to
                               district managers to reinforce the need to implement the
                               controls necessary to improve the effectiveness of the
                               programs.

                               The North Florida District manager responded to all of the
                               OIG recommendations stating in FY 2000, security reviews
                               were conducted in all offices, and all supervisors,
                               managers, and craft employees received the required
                               violence awareness training. He said the district has
                               ensured that all facilities have localized crisis management
                               plans on site, and that the district has implemented a
                               systematic approach to analyzing climate indicators and the
                               identification and follow-up of threats. He also stated that in
                               FY 2001 all threat assessment team core members would
                               receive the required orientation training and that a
                               performance measurement system for threat assessment
                               team activity would be implemented.

                               We have summarized management’s comments in the
                               report and included the full text of the comments in
                               Appendix E.

 Evaluation of                 While we disagree that the OIG report was misleading and
 Management’s                  focused on the condition of the violence awareness
 Comments                      programs in FY 1997 and 1998, using data from those fiscal
                               years was necessary because they were the latest complete
                               fiscal years at the time of our visit. However, interviews with
                               postal officials regarding their implementation of proactive
                               strategies occurred in September 1999.

                               Although the vice president for the Southeast Area did not
                               agree with our overall conclusions, we believe the area and
                               district planned or implemented actions are responsive to
                               the recommendations and address the issues identified in
                               this report.




                                                 iii
Review of the Violence Prevention and Response                                                 LB-AR-00-007
 Programs in the North Florida District


                                              INTRODUCTION
    Background                       The Postal Service recognizes the importance of ensuring
                                     the safety of its employees by creating and maintaining a
                                     work environment that is violence-free. This concept
                                     emphasizes using a viable workplace violence prevention
                                     program as a first step in helping to ensure a violence-free
                                     workplace. An effective program depends on a universal
                                     zero tolerance policy and a zero tolerance action plan that is
                                     consistently implemented for the management of threats,
                                     assaults, and other inappropriate workplace behavior.

                                     The Postal Service established the following initiatives and
                                     strategies to prevent and minimize the potential risk for
                                     violence in the workplace:

                                     •	 The Joint Statement on Violence and Behavior in the
                                        Workplace states the Postal Service’s position that
                                        violent and inappropriate behavior will not be tolerated
                                        by anyone at any level of the Postal Service.

                                     •	 The Threat Assessment Team Guide, Publication 108,
                                        and the Crisis Management Plan for Incidents of
                                        Violence in the Workplace, Publication 107,1 require
                                        districts to develop appropriate threat assessment and
                                        crisis management teams, as well as team plans of
                                        operation.

                                     •	 The Administrative Support Manual requires security
                                        control officers or their designees to conduct annual
                                        physical security reviews at all facilities.

    Objective, Scope, and            Our objective was to determine whether the North Florida
    Methodology                      District implemented Postal Service policies regarding
                                     violence prevention and response programs.

                                     The Office of Inspector General (OIG) engaged a contractor
                                     to conduct fieldwork and data analysis, prepare working
                                     papers, and draft reports. The OIG provided technical
                                     support, statistical sampling and projections, and quality
                                     assurance reviews. The OIG and the contractor prepared
                                     the final report. (See Appendix A for complete Objective,
                                     Scope, and Methodology details.)

1
    The Crisis Management Plan for Incidents of Violence in the Workplace is under revision.



                                                           1
Review of the Violence Prevention and Response                                     LB-AR-00-007
 Programs in the North Florida District


                                      AUDIT RESULTS
 Potential for Violence        On the basis of the review, we concluded that required
 in the District               controls were not fully implemented to reduce the potential
                               for violence in the North Florida District and the district’s
                               ability to respond to crisis situations could be improved.
                               Although the district generally complied with the Threat
                               Assessment Team Guide when reacting to incidents of
                               violence and complied with some of the policies and
                               procedures in the Crisis Management Plan for Incidents of
                               Violence in the Workplace, it did not comply with other
                               violence prevention requirements.

                               Districts that do not comply with these requirements face an
                               increased risk for violence in their facilities. Such violence
                               increases stress, inflicts emotional wounds, and lowers
                               employee morale. Organizationally, it diminishes credibility,
                               decreases productivity, creates work-specific tension, and
                               may lead to damage of property.

 Implementation of             The North Florida District generally complied with the Threat
 Violence Prevention           Assessment Team Guide when reacting to incidents of
 and Response                  violence. The district:
 Programs
                               •	 Established a crisis management team in 1993—four
                                  years prior to the issuance of violence prevention
                                  criteria.

                               •	 Consistently communicated and enforced the zero
                                  tolerance policy.

                               •	 Developed an action plan for handling violence in the
                                  workplace.

                               The North Florida District also generally complied with some
                               of the policies and procedures outlined in the Crisis
                               Management Plan for Incidents of Violence in the
                               Workplace.

                               However, the North Florida District did not fully implement
                               proactive strategies designed to prevent violence from
                               occurring, as required by the Threat Assessment Team
                               Guide. The district did not follow many of the policies and
                               procedures because officials believed the guide was not
                               mandatory. As a result, required controls were not fully



                                                 2
Review of the Violence Prevention and Response                                                            LB-AR-00-007
 Programs in the North Florida District


                                     implemented to reduce the potential for violence in the
                                     workplace. Our audit disclosed the North Florida District did
                                     not:

                                     •	 Conduct annual physical security reviews.

                                     •	 Monitor and evaluate climate indicators.

                                     •	 Engage in case management.

                                     •	 Provide the required two-day orientation training to all
                                        threat assessment team members.

                                     •	 Measure team performance.

                                     •	 Mandate violence awareness training.

                                     In addition, the district did not ensure receipt of local
                                     customized crisis management plans at all facilities in
                                     accordance with the Crisis Management Plan for Incidents
                                     of Violence in the Workplace. We used a statistical sample
                                     to project that as many as 114 (39 percent) of the 292
                                     district facilities did not have a copy of their local customized
                                     plan on site. (See Appendices B and C.)

    Physical Security                The district did not conduct annual physical security reviews
    Reviews                          in all facilities as mandated by the Postal Service
                                     Administrative Support Manual. The physical security
                                     reviews were not conducted because district officials did not
                                     have a clear understanding of the policy.

                                     The Postal Service Administrative Support Manual,
                                     Chapter 2, Section 27, requires the security control officer or
                                     designee to conduct annual physical security reviews at all
                                     Postal Service facilities to ensure that the appropriate
                                     attention is given to security issues.2

                                     We used a statistical sample to project the district
                                     conducted no more than 53 (18 percent) of the 292 required
                                     annual physical security reviews in fiscal year (FY) 1997.



2
  The chief postal inspector is designated as the security officer for the Postal Service. The security control officers
located at each postal facility, liaison with the Postal Inspection Service on all security matters.



                                                            3
Review of the Violence Prevention and Response                                                        LB-AR-00-007
 Programs in the North Florida District



                                     For FY 1998, we projected no more than 63 (22 percent) of
                                     the 292 facilities were reviewed. (See Appendices B and
                                     C.)

                                     According to the district’s security control officer, the
                                     district’s policy for conducting annual physical security
                                     reviews was as follows:

                                     •	 In FY 1997, facilities with more than 100 employees had
                                        reviews conducted.

                                     •	 In FY 1998, facilities with more than 25 employees had
                                        reviews conducted.

                                     The lack of physical security reviews at Postal Service
                                     facilities may increase the risk of workplace violence or the
                                     loss or destruction of Postal Service property and the mail.

    Climate Indicators               We found that the North Florida District did not monitor and
                                     evaluate climate indicators, because officials believed the
                                     requirement in the Threat Assessment Team Guide was not
                                     mandatory.

                                     Therefore, the district did not identify and follow up on
                                     events that could escalate the potential for violence. As a
                                     result, controls associated with identifying and assessing
                                     indicators were not used to reduce the potential for violence
                                     in the workplace.

                                     The guide outlines several climate indicators that are
                                     relevant for review when making such determinations.
                                     Among those indicators are grievances, Equal Employment
                                     Opportunity complaints, referrals to the Employee
                                     Assistance Program, and labor-management relationships.3

                                     We reviewed several climate indicators that management
                                     could use as benchmarks to assess the workplace climate
                                     and identify locations that may require a climate
                                     assessment.




3
    We considered the results of the Voice of the Employee surveys as an indicator of labor-management relationships.



                                                           4
Review of the Violence Prevention and Response                                                 LB-AR-00-007
 Programs in the North Florida District



                                 Grievances. Exhibit 1 shows the North Florida District had
                                 the sixth highest ratio (21:100) in the Southeast Area of
                                 step 3 grievance appeals to employees, for the period
                                 June 1, 1997, through June 30, 1999.4




                                 For the same period, Exhibit 2 shows that the district shared
                                 the fourth highest ratio (18:100) of step 3 contract-related
                                 grievance appeals to employees.




4
  In a report entitled, “U.S. Postal Service: Little Progress Made in Addressing Persistent Labor-Management
Problems,” October 1997, GAO/GGD-98-1, GAO reported that a ratio of 13:100 grievances to employees was a high
ratio. Union and management officials did not dispute this claim.



                                                      5
Review of the Violence Prevention and Response                                     LB-AR-00-007
 Programs in the North Florida District



                               The district shared the lowest ratio (3:100) of step 3
                               discipline-related grievance appeals to employees, for the
                               same period, as shown in Exhibit 3.




                               Equal Employment Opportunity Complaints. Exhibit 4
                               shows that during the period June 1, 1997, to June 30,
                               1999, the district had the fourth highest ratio (1:19) of Equal
                               Employment Opportunity formal complaints to employees, in
                               the Southeast Area.




                                                 6
Review of the Violence Prevention and Response                                                      LB-AR-00-007
 Programs in the North Florida District



                                  Employee Assistance Program Cases. For the same
                                  period, the district shared the third lowest ratio (1:10) of total
                                  pre-case activity5 Employee Assistance program cases per
                                  employee as depicted in Exhibit 5.




5
 The total pre-case activity contacts include all those employees, family members, or supervisors who made contact
with the Employee Assistance Program to set up appointments with an Employee Assistance Program counselor.



                                                        7
Review of the Violence Prevention and Response                                                         LB-AR-00-007
 Programs in the North Florida District



                                   Voice of the Employee Survey Results. A majority of
                                   employees who responded to the Voice of the Employee
                                   survey6 in the North Florida District were satisfied with their
                                   work environment. As shown in Exhibits 6 and 7, the
                                   number of employees who responded favorably to their
                                   workplace environment ranged from about 48 percent for
                                   quarter 4 of 1998, to about 53 percent of employees
                                   responding in quarters 1,2, and 3, of 1999. The number of
                                   employees who responded unfavorably to their workplace
                                   environment, ranged from about 29 percent in quarter 4,
                                   1998, to about 25 percent in quarters 1, 2, and 3, 1999. In
                                   addition, about 23 percent of the employees, who
                                   responded for the same quarters, remained neutral.




6
  The Voice of the Employee survey is a data collection instrument that the Postal Service has established to help
improve workplace relationships and ensure that all employees are treated with fairness, feel safe in their workplace,
have opportunities to participate and take pride in being postal employees.



                                                          8
Review of the Violence Prevention and Response                                     LB-AR-00-007
 Programs in the North Florida District




                               While these climate indicators cannot be used as the sole
                               basis for reaching conclusions concerning the district’s
                               workplace environment, the Threat Assessment Team can
                               use them to assess the potential for violence in the district.

                               Climate Assessments. The North Florida District
                               conducted 45 climate assessments during our audit period.
                               However, the climate assessments were not a result of the
                               district’s evaluation of any of the climate indicators
                               discussed earlier. The Employee and Workplace
                               Intervention Analyst conducted these 45 assessments at the
                               request of postal management and district officials. Routine
                               analysis of climate indicators may have identified the need
                               for climate assessments at these sites before problems
                               occurred.

                               For example, a climate assessment was conducted at a
                               facility based on a request made by the plant manager to
                               study conflicts that had occurred between management and
                               craft employees. The Employee and Workplace
                               Intervention Analyst recommended that facility management
                               conduct systemic interviews and observations regarding
                               employees concerns about management’s interaction with
                               them, discuss employee opportunities, attend
                               communication related seminars/workshops, and promote
                               treatment of employees with respect, sensitivity, and
                               positive recognition.




                                                 9
Review of the Violence Prevention and Response                                                       LB-AR-00-007
 Programs in the North Florida District



                                   The district could improve its process for evaluating the
                                   workplace climate by proactively identifying and monitoring
                                   sites or situations that have the potential for violence.
                                   Reviewing the indicators on a periodic basis may provide
                                   valuable information about conflict in district facilities.

    Case Management                The North Florida District threat assessment team did not
                                   manage all threats or follow up on risk abatement plans
                                   developed in response to identified threats, as required by
                                   the Threat Assessment Team Guide. According to the
                                   Employee and Workplace Intervention Analyst, facility
                                   management was responsible for developing an action plan
                                   to correct problems and to follow up to ensure that the
                                   situation improved at their facility. A district that does not
                                   fully identify and investigate all threats and follow up on risk
                                   abatement plans could contribute toward an unsafe
                                   workplace for employees.

                                   The Threat Assessment Team Guide requires the threat
                                   assessment team to engage in case management of
                                   threats, including developing a risk abatement plan and
                                   engaging in follow up. We found the Employee and
                                   Workplace Intervention Analyst maintained individual case
                                   files about some of the incidents that occurred in the district.
                                   However, the threat assessment team did not respond to all
                                   of the threateners in the district. Our review of the team’s
                                   list of individual threats showed that the district documented
                                   84 threats during the period June 1, 1997, through June 30,
                                   1999. The Postal Inspection Service also provided us threat
                                   investigation reports for 65 employee-related threats7 for the
                                   same period. Of the 65 individual threats documented by
                                   the Postal Inspection Service, only nine of them appeared
                                   on the Threat Assessment Team list, and thus were not
                                   responded to, or followed up on by the team. District
                                   officials were not able to explain the discrepancy between
                                   the two lists.

    Threat Assessment 	            Only one of the seven threat assessment team core
    Team Orientation 	             members received the two-day orientation training required
                                   by the Threat Assessment Team Guide. According to the
                                   Human Resources manager, the remaining six members did

7
 There were 97 total threats documented in the Inspection Service reports, of which 32 were customer-related threats
and the remaining 65 were employee related.



                                                        10
Review of the Violence Prevention and Response                                     LB-AR-00-007
 Programs in the North Florida District


                               not attend because he believed it was not mandatory to
                               follow the requirement in the guide. As a result, the threat
                               assessment team was not adequately trained to establish
                               an effective violence prevention program.

                               The Threat Assessment Team Guide requires that all core
                               threat assessment team members and Postal Inspectors
                               receive a two-day orientation regarding the Postal Service
                               approach to the threat assessment team process. This
                               training is to make each participant aware of the Postal
                               Service’s commitment to a strategic plan for reducing
                               violence in the workplace.

 Measurement of Threat The North Florida District’s Threat Assessment Team did
 Assessment Team       not establish performance measures as required by the
 Performance           Threat Assessment Team Guide. According to district
                       officials, the team measured its performance by tracking the
                       number of violent incidents that led to fatalities and
                       reviewing the employee responses from the Voice of the
                       Employee survey. Without performance measures, the
                       team could not objectively measure the effect their violence
                       prevention efforts had on workplace climate and operations.

                               Performance measures help reduce the risk of violence in
                               the workplace because they provide objective information to
                               management on baseline performance and measure the
                               effect of the violence prevention program. Objective data
                               can be obtained through the use of surveys, the numbers
                               and types of threats and assaults, the tracking system, and
                               post-incident analysis of each violent incident.

 Violence Awareness            The district did not provide workplace violence awareness
 Training                      training for all district managers, supervisors, and craft
                               employees in accordance with the Threat Assessment
                               Team Guide because, according to district officials, they did
                               not believe Postal Service Headquarters had made training
                               mandatory. Employees who have not received violence
                               awareness training may not be effective in preventing
                               violence in the workplace.

                               The Threat Assessment Team Guide states that every
                               Postal Service manager and supervisor should complete
                               eight hours of workplace violence awareness program
                               training and four hours of follow up training. Training topics
                               should include defusing a difficult situation and providing



                                                 11
Review of the Violence Prevention and Response                                                             LB-AR-00-007
 Programs in the North Florida District


                                       effective supervision. In September 1998, Postal Service
                                       management mandated one hour of violence awareness
                                       training for all craft employees, supervisors, and managers.

                                       The North Florida District workplace violence awareness
                                       training consisted of:

                                       •	 Workplace violence training primarily for managers and
                                          supervisors.

                                       •	 Video and television displays concerning workplace
                                          violence.

                                       •	 An introduction to workplace violence awareness for new
                                          employees.8

                                       •	 Stand-up sessions on a recurring basis for all employees
                                          at the district's facilities.9

                                       We used a statistical sample to project the number of
                                       managers, supervisors, and craft employees who had
                                       attended violence awareness training from June 1, 1997,
                                       through June 30, 1999. We projected that up to 468
                                       (56 percent) of the 842 managers and supervisors in the
                                       district, had no workplace violence awareness training. We
                                       projected that no more than 100 (12 percent) of the
                                       842 managers and supervisors received both the eight-hour
                                       workplace violence awareness training and the four-hour
                                       follow up training. For the same period, we projected that
                                       up to 536 (64 percent) of the 842 managers and supervisors
                                       received some workplace violence awareness training,
                                       ranging from 1 to 67 hours, but did not meet the specific
                                       12-hour criterion. (See Appendix D.)

                                       We projected that no more than 472 (6 percent) of the 8,029
                                       craft employees in the North Florida District received the
                                       required one-hour violence awareness training course.
                                       (See Appendix D.)

                                       The Postal Service has recognized violence awareness
                                       training for supervisors, managers, and craft employees as
                                       a vital component in preventing violence in the workplace.

8
    We could not verity attendance at the orientation training because the district did not maintain a record of attendees.
9
    We could not verify attendance at the stand-up sessions because the district did not maintain a record of attendees.



                                                             12
Review of the Violence Prevention and Response                                      LB-AR-00-007
 Programs in the North Florida District


                               This training is mandatory because employees need
                               effective tools to recognize the warning signs of violence
                               and possibly defuse difficult situations.

 Crisis Management             The North Florida District did not ensure receipt of local,
 Plans Available at            customized crisis management plans at all district facilities
 Facilities                    in accordance with the Crisis Management Plan for
                               Incidents of Violence in the Workplace. Facility managers
                               told us they could not locate the plans.

                               We used a statistical sample to project that as many as
                               114 (39 percent) of the 292 facilities in the district did not
                               have a copy of their local plan. (See Appendices B and C.)

                               Facilities that do not have crisis management plans on site
                               may not have the necessary information to manage a crisis
                               through to a successful conclusion.

 Recommendations               We recommend the vice president, Southeast Area
                               Operations, direct the North Florida District manager to
                               implement controls to improve the effectiveness of the
                               violence prevention program. Specifically:

                               1. Conduct annual physical security reviews at all district
                                  facilities.

                               2. Monitor and evaluate climate indicators to identify
                                  conflict that could lead to violence in the workplace.

                               3. Identify all threats and follow up to ensure that risk
                                  abatement plans are implemented.

                               4. Provide the required two day orientation training to all
                                  core members of the threat assessment team.

                               5. Establish performance measures to gauge team
                                  performance.

                               6. Mandate attendance at violence awareness training for
                                  all craft employees, supervisors, and managers.

                               7. Ensure receipt of local customized crisis management
                                  plans at all facilities.




                                                 13
Review of the Violence Prevention and Response                                    LB-AR-00-007
 Programs in the North Florida District




 Management’s                  The vice president Southeast Area Operations observed
 Comments                      that the OIG report focused on the condition of the violence
                               awareness programs in FY 1997 and 1998. He stated that
                               because the OIG based its August 2000 conclusions on
                               data obtained before June 1999 (the majority of which is
                               FY 1997 and FY 1998), the conclusions are somewhat
                               misleading. He added that the report does not reference
                               any information/data during the past year (data pre-dates
                               June 1999). For example, the vice president pointed out
                               that the Southeast Area mandated the necessary Violence
                               Awareness Training in September 1999 for FY 2000 and
                               that training has now been fully completed and documented.
                               The vice president emphasized that the Southeast Area
                               remains committed to the continuous improvement of the
                               violence prevention and response programs and that
                               instructions would be issued to district managers to
                               reinforce the need to implement the controls necessary to
                               improve the effectiveness of the programs.

                               The North Florida District manager responded that in
                               FY 2000 security reviews were conducted in all offices.
                               Prior to the audit, it was understood that security reviews
                               were only required in offices with 26 or more employees. In
                               addition, he stated that the district has implemented a
                               systematic approach to analyzing climate indicators and that
                               beginning in December 1998, the district issued to its cluster
                               members workplace environment indicator reports on an
                               approximate frequency of every other accounting period.
                               He identified efforts to improve the identification and follow
                               up of threats, and noted that core members of the Threat
                               Assessment Team received the required training; however,
                               the team would be retrained in FY 2001. The district
                               manager added that a database would be used to measure
                               Threat Assessment Team performance.

                               The district manager commented that in utilizing a statistical
                               sample, the draft report cited a deficiency concerning
                               violence awareness training from June 1, 1997, through
                               June 30, 1999. He believed that this methodology did not
                               take into consideration training given to senior managers in
                               FY 1996 and training mandated in FY 2000. He noted that
                               in FY 2000 training was given to managers, supervisors,
                               and all craft employees.




                                                 14
Review of the Violence Prevention and Response                                     LB-AR-00-007
 Programs in the North Florida District


                               He said the district has ensured that all facilities have
                               localized crisis management plans on site. He added that
                               three of the seven offices noted in the report (Station A,
                               Cecil Field, and Mayport) are finance stations. He stated
                               that craft employees only work at these locations. He stated
                               that the administrative manager is physically located
                               elsewhere and does have a crisis management plan. He
                               observed that the remaining offices (Worthington Springs,
                               Archer, Oxford, and Alford) have no recollection of being
                               contacted for this plan. He sites a possible
                               miscommunication on the part of the auditors and the
                               managers or postmasters in these small offices as a reason
                               for not remembering the calls. Regardless, he commits to
                               follow up with each location to ensure that plans are in
                               place.

                               We have summarized management’s comments in the
                               report and included the full text of the comments in
                               Appendix E.

 Evaluation of                 While we disagree that the OIG report was misleading and
 Management’s                  focused on the condition of the violence awareness
 Comments                      programs in FY 1997 and 1998, using data from those fiscal
                               years was necessary because they were the latest complete
                               fiscal years at the time of our visit. However, interviews with
                               postal officials regarding their implementation of proactive
                               strategies occurred in September 1999. We do
                               acknowledge that some time lapsed between the
                               completion of our fieldwork and release of our draft report to
                               management due to the application of this review at
                               24 other districts. Yet, we believe the report presents a fair
                               portrayal of the district’s threat assessment program.

                               The district manager took exception with information
                               presented on monitoring climate indicators and customized
                               crisis management plans. We reported on data and
                               information provided to us at the time of our fieldwork;
                               consequently, we cannot refute the district manager’s
                               assertions that the indicators were monitored and plans
                               were available.




                                                 15
Review of the Violence Prevention and Response                                  LB-AR-00-007
 Programs in the North Florida District



                               Although the vice president for the Southeast Area did not
                               agree with our overall conclusions, we believe the area and
                               district planned or implemented actions are responsive to
                               the recommendations and address the issues identified in
                               this report.




                                                 16
Review of the Violence Prevention and Response                                                        LB-AR-00-007
 Programs in the North Florida District


          APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
The Office of Inspector General (OIG) and the contractor reviewed applicable laws,
policies, procedures, climate assessments, and other documents, such as the Postal
Inspection Service’s Assault and Threats Incident Reports and investigative worksheets.
The OIG and contractor also reviewed United States General Accounting Office (GAO)
reports related to labor-management issues.

The OIG and contractor interviewed Postal Service officials in the North Florida District,
Southeast Area, and headquarters to obtain information about the Postal Service
workplace environment, and the procedures and policies implemented to ensure a safe
and violence-free workplace.

To determine the district's compliance with policies and procedures, the OIG and
contractor reviewed the district's Threat Assessment Team activities, zero tolerance
policy, and crisis management plan. The OIG and contractor compared the activities,
policies, and plans to the Postal Service requirements for violence prevention and
response strategies. The district's initiatives for addressing workplace environmental
climate issues, including training programs on violence prevention and response were
also reviewed.

The OIG and contractor reviewed climate indicators outlined in the Threat Assessment
Team Guide that may help the Threat Assessment Team develop preventive measures
to moderate risk and liability. Those climate indicators were the number of employee
grievances, Equal Employment Opportunity complaints, and Employee Assistance
Program cases for all districts in the Southeast Area, including the North Florida District,
for the period of June 1, 1997, through June 30, 1999.10 For the same period, the OIG
and contractor reviewed the workplace climate assessments for the North Florida
District. The OIG and contractor also reviewed results from the 1998 and 1999 Voice of
the Employee surveys conducted in the North Florida District. We reviewed this data as
indicators of conflict that could lead to violence in the North Florida District. The OIG
and contractor compared the indicators in the North Florida District to the same
indicators in other districts within the Southeast Area.11

For fiscal years (FY) 1997 and 1998, the OIG projected the number of facilities where
district officials conducted annual physical security reviews, and maintained crisis
management plans on site.12 We used statistical sampling methodologies to determine
these numbers. (See Appendices B and C.)


10
   The OIG selected this audit period because Postal Service published the Threat Assessment Team Guide and 

Crisis Management Plan for Incidents of Violence in the Workplace in May 1997. 

11
   The OIG obtained this data from the Postal Service databases but did not verify the accuracy of the data.
12
   The OIG obtained this data from the Postal Service database. We did not verify the accuracy of the data, however, 

the audit team made every effort to include only sites that fell under Postal Service violence prevention and threat 

assessment guidelines. The team effort therefore included removing locations such as contractor-only facilities, 

parking lots, land, and antenna sites from the data provided, to arrive at the facility population size. 




                                                         17
Review of the Violence Prevention and Response                           LB-AR-00-007
 Programs in the North Florida District


For the period June 1, 1997, through June 30, 1999, the OIG projected the number of
craft employees, supervisors and managers who received the required number of hours
of workplace violence awareness training. We used statistical sampling methodologies
to project these numbers.13 (See Appendix D.)

The OIG and the contractor conducted the audit from September 1999 through
September 2000, in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. The OIG and contractor discussed the conclusions and observations
with appropriate management officials and included their comments where appropriate.




13
     See footnote number 11.



                                                 18
Review of the Violence Prevention and Response                                     LB-AR-00-007
 Programs in the North Florida District


                                         APPENDIX B
     STATISTICAL SAMPLING AND PROJECTIONS FOR PHYSICAL
        SECURITY REVIEWS AND THE EXISTENCE OF CRISIS
              MANAGEMENT PLANS FOR FACILITIES
                IN THE NORTH FLORIDA DISTRICT
                  FISCAL YEARS 1997 AND 1998
Purpose of the Sampling

One of the objectives of this audit was to assess the North Florida District’s
implementation of Postal Service policy regarding physical security reviews and crisis
management plans. In support of this objective, the audit team employed a simple
random attribute sample design that allows a statistical projection of responses from
individual facilities within the North Florida District.

Definition of the Audit Universe

The audit universe consisted of 300 facilities, such as post offices, stations, branches,
postal stores, and processing and distribution centers. The North Florida District
management was the source of the universe data. In the North Florida District, an initial
database search provided a universe of 252 facilities. Subsequent data yielded another
48 facilities that did not appear on the first listing, for a total of 300 facilities. The audit
team made every effort to clean the database to include only sites that fell under Postal
Service violence prevention and threat assessment guidelines. The team effort,
therefore, included removing locations such as contractor-only parking lots, land, and
antenna sites from the data provided, to arrive at the above-stated 300-facility
population size.

Sample Design and Modifications

The audit used a stratified simple random sample design. For the first stratum, 35
facilities were randomly selected for review from the initial listing of 252 facilities. This
sample size was planned to select facilities at the second stage of a two-stage design
and was therefore not designed to provide a predetermined level of precision for an
individual district projection. In changing to district-level projections, the audit team
agreed to accept whatever level of precision derived from the existing sample size.

By the time the additional 48 facilities were identified, the team had already reviewed
the first sample set. Rather than redraw the entire sample, we chose to include the
additional 48 facilities in a separate stratum and to sample 20 of the 48 facilities. A
further complication arose when four contractor-only facilities (i.e., inapplicable to the
review) were discovered in the second stratum sample. Because no specific data was
available to determine exactly how many other such facilities might be in the stratum,
we had to make an estimate of the size of the applicable subpopulation for that stratum.



                                                 19
Review of the Violence Prevention and Response                                  LB-AR-00-007
 Programs in the North Florida District


Using ((N-n)/N) as an unbiased estimator for ((N1-n1)/N1), where N1 is unknown, we
arrived at an estimated stratum subpopulation size of 40 (Elementary Survey Sampling,
Scheaffer, Mendenhall, and Ott, c.1990, chapter 11.3).

The resulting total estimated population size for the North Florida District is 292
facilities. Three separate attributes were included for the facility analysis.

Statistical Projections of the Sample Data

All attributes are projected to the estimated universe of 292 facilities. No differences in
universe were provided for FY 1997 versus FY 1998.

For each of the three attributes analyzed, the North Florida District results included one
stratum with either a very low or very high number of “positive” responses. In each such
case the stratum was analyzed using the hypergeometric adaptation of the binomial
attribute table for controls testing, found in the General Accounting Office’s Financial
Audit Manual (the “FAM”). Because the population size is small, the tabulated values
(for 95 percent reliability) were adjusted by the corresponding hypergeometric finite
population correction, ((N-n)/(N-1))^0.5.

In each case, the remaining stratum was analyzed using the formulas for estimation of a
population proportion for a simple random sample and the two strata for each attribute
were combined using stratum weights, as described in Elementary Survey Sampling,
Scheaffer, Mendenhall, and Ott, c.1990.

Attribute 1: Physical Security Reviews Conducted In FY 1997

Based on a projection of the sample results, we are 95 percent confident that no more
than 53 (18 percent) of the North Florida District facilities conducted a physical security
review in FY 1997. The unbiased point estimate is 25 (about 9 percent) facilities.
(Estimated universe: 292)

Attribute 2: Physical Security Reviews Conducted In FY 1998

Based on a projection of the sample results, we are 95 percent confident that no more
than 63 (22 percent) of the North Florida District facilities conducted a physical security
review in FY 1998. The unbiased point estimate is 32 (about 11 percent) facilities.
(Estimated universe: 292)

Attribute 3: Crisis Management Plans On Site

Based on a projection of the sample results, we are 95 percent confident that as many
as 114 (39 percent) of the North Florida District facilities did not have a copy of the
district crisis management plan. The unbiased point estimate is 223 (about 76 percent)
facilities with the crisis management plan. (Estimated universe: 292)



                                                 20
Review of the Violence Prevention and Response                                LB-AR-00-007
 Programs in the North Florida District


                                         APPENDIX C
              SAMPLE OF CRISIS MANAGEMENT PLANS
     ON SITE AND PHYSICAL SECURITY REVIEWS CONDUCTED AT
               NORTH FLORIDA DISTRICT FACILITIES
                   FISCAL YEARS 1997 AND 1998
                                                                             PHYSICAL
                                                                 CRISIS
                                                                             SECURITY
ITEM                                                   ZIP    MANAGEMENT
         TYPE OF FACILITY           LOCATION                                 REVIEWS
 NO.                                                  CODE     PLANS ON
                                                                            CONDUCTED
                                                                  SITE
                                                                           FY 97  FY 98
1        Main Post Office        Oxford               34484      NO         NO     NO
2        Main Post Office        Lamont               32336      YES        NO     NO
3        Station                 Main Street          32601      YES        NO     NO
                                 Station
4        Main Post Office        Fort White           32038      YES       NO       NO
5        Main Post Office        Hernando             34442      YES       NO       NO
6        Main Post Office        Cross City           32628      YES       NO       NO
7        Main Post Office        Lady Lake            32159      YES       NO       NO
8        Main Post Office        Clarksville          32430      YES       NO       NO
9        Main Post Office        Cantonment           32533      YES       YES      YES
10       Main Post Office        Alford               32420      NO        NO       NO
11       Main Post Office        McIntosh             32664      YES       NO       NO
12       Main Post Office        Bonifay              32425      YES       NO       NO
13       Main Post Office        Penney Farms         32079      YES       NO       NO
14       Main Post Office        Glen Saint Mary      32040      YES       NO       NO
15       Station                 Park Avenue          32302      YES       NO       NO
                                 Station
16       Station                 Port Orange          32127      YES       NO       NO
                                 Branch
17       Main Post Office        Starke               32091      YES       NO       NO
18       Main Post Office        Altha                32421      YES       NO       NO
19       Main Post Office        Putnam Hall          32185      YES       NO       NO
20       Main Post Office        Hawthorne            32640      YES       NO       NO
21       Station                 Palm Coast           32137      YES       NO       NO
22       Main Post Office        Yulee                32097      YES       NO       NO
23       Main Post Office        Blountstown          32424      YES       NO       NO
24       Main Post Office        Ponce De Leon        32455      YES       NO       NO
25       Main Post Office        Candler              32111      YES       NO       NO
26       Main Post Office        Wewahitchka          32465      YES       NO       NO
27       Main Post Office        Eglin                32542      YES       NO       NO




                                                 21
Review of the Violence Prevention and Response                                LB-AR-00-007
 Programs in the North Florida District


                                                                             PHYSICAL
                                                                 CRISIS
                                                                             SECURITY
ITEM                                                   ZIP    MANAGEMENT
         TYPE OF FACILITY           LOCATION                                 REVIEWS
 NO.                                                  CODE     PLANS ON
                                                                            CONDUCTED
                                                                  SITE
                                                                           FY 97  FY 98
28       Main Post Office        Worthington          32697      NO         NO     NO
                                 Springs
29       Main Post Office        Bascom               32423      YES       NO       NO
30       Main Post Office        Jasper               32052      YES       NO       NO
31       Station                 Station A            32122      NO        NO       NO
32       Main Post Office        Archer               32618      NO        NO       NO
33       Station                 Century              32535      YES       NO       NO
34       Main Post Office        Welaka               32193      YES       NO       NO
35       Main Post Office        Palatka              32177      YES       NO       NO
36       Station                 Jacksonville         32210      YES       YES      YES
37       Station                 North                32218      YES       NO       YES
                                 Jacksonville
38       Station                 Jacksonville         32250      YES       NO       NO
                                 Beach
39       Bulk Mail Facility      Jacksonville         32099      YES       YES      NO
                                 Beach
40       Station                 Panama City          32405      YES       NO       NO
41       Station                 Cecil Field          32202      NO        NO       NO
42       Station                 Jacksonville         32234      YES       YES      YES
43       Station                 Jacksonville         32225      YES       YES      YES
44       Station                 Mayport              32233      NO        NO       NO
45       Station                 Jacksonville         32201      YES       NO       NO
46       Vehicle                 Jacksonville         32203      Yes       NO       NO
         Maintenance Facility
47       Station                 Jacksonville         32257      YES       YES      NO
48       Station                 Pensacola            32503      YES       NO       NO
49       Station                 Jacksonville         32255      YES       NO       NO
50       Mail Processing         Jacksonville         32218      YES       NO       YES
         Annex
51       Vehicle                 Gainesville          32608      YES       NO       NO
         Maintenance Facility
52       Station                 Jacksonville         32211      YES       YES      YES
53       Remote Encoding         Jacksonville         32218      YES       YES      YES
         Center
54       Station                 Carver               32009      YES       YES      YES
55       Mail Processing         St. Augustine        32084      YES       YES      YES
         Annex




                                                 22
Review of the Violence Prevention and Response                                  LB-AR-00-007
 Programs in the North Florida District


                                         APPENDIX D
    STATISTICAL SAMPLING AND PROJECTIONS FOR EMPOYEES
         TRAINED IN WORKPLACE VIOLENCE AWARENESS
                IN THE NORTH FLORIDA DISTRICT
                  JUNE 1, 1997 TO JUNE 30, 1999
Purpose of the Sampling

One of the objectives of this audit was to assess the North Florida District’s
implementation of Postal Service policy to train supervisors/managers and craft
employees in conflict resolution and workplace violence awareness. In support of this
objective, the audit team conducted statistical samples of personnel from each of the
two groups. A simple random attribute sample design was used in both cases.

Definition of the Audit Universe

For the craft employee assessment, the audit universe consists of 8,029 craft
employees in the North Florida District. For the supervisory-level assessment, the audit
universe is a total of 842 supervisors and managers in the district.

All training information came from the Postal Service personnel database in
Minneapolis, Minnesota.

Sample Design and Modifications

The audit used a simple random sample design. We randomly selected 50 craft
employees and 50 managers and supervisors for review. This sample size was
planned to select employees at the second stage of a two-stage design and was
therefore not designed to provide a predetermined level of precision for an individual
district projection. In changing to district-level projections, the audit team agreed to
accept whatever level of precision derived from the existing sample size. Three
separate attributes were included for the supervisory-level training analysis.

Statistical Projections of the Sample Data

In general, the sample data were analyzed based on the estimation of a population
proportion for a simple random sample as described in Elementary Survey Sampling,
Scheaffer, Mendenhall, and Ott, c.1990.

In some cases, a low number of “positive” responses in the sample required analysis
using the hypergeometric adaptation of the binomial attribute table for controls testing,
found in the General Accounting Office’s Financial Audit Manual (the “FAM”). The
tabulated values (for 95 percent reliability) are adjusted by the hypergeometric finite
population correction, ((N-n)/(N-1))^0.5.



                                                 23
Review of the Violence Prevention and Response                                  LB-AR-00-007
 Programs in the North Florida District



Results are presented for a one-sided confidence interval as well as the point estimate.
For the collection of supervisory attributes, the sum of the point estimates will equal the
total population. A sum of the upper bounds is meaningless because any increases in
one category would be offset by reductions in another.

Craft Employee Training Projection

Based on a projection of the sample results, we are 95 percent confident that no more
than 472 (6 percent) of the 8,029 craft employees in the North Florida District received
training in workplace violence awareness. The unbiased point estimate is that no
employees met the training criterion.

Supervisors and Managers: Training Projection

Based on a projection of the sample results, we are 95 percent confident that up to 468
(56 percent) of the 842 North Florida District supervisors and managers received no
workplace violence awareness training. The unbiased point estimate is 44 percent, or
370 supervisors and managers, who received no subject-matter training.

Based on a projection of the sample results, we are 95 percent confident that up to 536
(64 percent) of the 842 North Florida District supervisors and managers received some
subject-matter training, possibly as part of other supervisory courses. The unbiased
point estimate is 52 percent, or 438 supervisors and managers.

Based on a projection of the sample results, we are 95 percent confident that no more
than 100 (12 percent) of the 842 North Florida District supervisors and managers met or
exceeded the 12-hour subject-matter training criterion. The unbiased point estimate is
that 4 percent, or 34 supervisors and managers, met the 12-hour training criterion.




                                                 24
Review of the Violence Prevention and Response        LB-AR-00-007
 Programs in the North Florida District



                  APPENDIX E. MANAGEMENT’S COMMENTS




                                                 25
Review of the Violence Prevention and Response        LB-AR-00-007
 Programs in the North Florida District




                                                 26
Review of the Violence Prevention and Response        LB-AR-00-007
 Programs in the North Florida District




                                                 27
Review of the Violence Prevention and Response        LB-AR-00-007
 Programs in the North Florida District




                                                 28
Review of the Violence Prevention and Response        LB-AR-00-007
 Programs in the North Florida District




                                                 29
Review of the Violence Prevention and Response        LB-AR-00-007
 Programs in the North Florida District




                                                 30
Review of the Violence Prevention and Response        LB-AR-00-007
 Programs in the North Florida District




                                                 31
